Pig!
I

C@OCKLE

p E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1453

CAL CARTAGE TRANSPORTATION
EXPRESS, LLC, et al.,
Petitioners,

v.

THE PEOPLE OF THE STATE
OF CALIFORNIA, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR NATIONAL
MOTOR FREIGHT TRAFFIC ASSOCIATION, INC., AS AMICUS CURIAE SUPPORTING
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 3656 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 27th day of May, 2021.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

i GENERAL MOTARY-State of Nebraska A / Z. Chk,
i RENEE J. GOSS 9 . .

My Comm. Exp. September 5, 2023
Affiant

 

Notary Public 40988
